Inspections & Evaluations Directorate


Evaluation of the
Voting Assistance Program

March 31, 2006
Report No. IE-2006-001
                                             DEPARTMENT OF DEFENSE
                                          OFFICE OF INSPECTOR GENERAL




                                                         MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




               On the Cover:
               We have chosen the Statue of Freedom from the United States Capitol as a symbol to be reflected in our report
               covers.

               The bronze Statue of Freedom was designed by American sculptor Thomas Crawford in 1857-1859. Crawford
               described his creation as being readily understandable by the American people:
                 I have endeavored to represent Freedom triumphant __ in Peace and War . . . In her left hand she holds the olive
                 branch while the right hand rests on a sword which sustains the Shield of the United States. These emblems
                 are such as the mass of our people will easily understand . . . I have introduced a base surrounded by wreaths
                 indicative of the rewards Freedom is ready to bestow . . .

               Allen, William C. , The Dome of the United States Capitol: An Architectural History. Prepared under the Direction of George M. White, FAIA,




                                                                                                                                                             hot line
               Architect of the Capitol, U.S. Government Printing Office Washington: 1992                                                                    D E PA R T M E N T O F D E F E N S E
                                                                                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.
                                                                                                                                                                                                    Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
       If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of Defense, please contact us.
               Phone: 800.424.9098                    E-mail: hotline@dodig.mil                      Web site: www.dodig.mil/hotline
                               DoD Voting Assistance Program
                                                                     March 2006

Who Should Read This Report and Why?

DoD civilian and military personnel who are responsible for the
administration, oversight, and implementation of the Federal Voting
Assistance Program (FVAP) and Military Services’ voting assistance
programs should read this report.

What Was Identified?
The Inspectors General of the Military Departments reported that the
calendar year 2005 DoD voting assistance programs were generally effective
in accordance with the provisions of section 1566, title 10, U.S. Code.
However, there are opportunities to improve how voting information and
materials are provided to all absentee voters. Sixty-nine percent of the
survey respondents said they were aware of the Service voting assistance
programs. Fifty-seven percent answered that they knew where to obtain
voting information on base. Thirty-four percent of the respondents
responded that they had received voting information and materials.

The Inspectors General of the Military Departments also reported that their
Services generally complied with the DoD Directive 1000.4, “Federal Voting
Assistance Program (FVAP),” April 14, 2004, and their respective Service
instructions. At the 10 DoD installations visited, we identified specific
instances of non-compliance. However, we could not assess any negative
effects attributable to these instances.

The survey revealed that only 14 percent of respondents knew their Service
had a web site dedicated to voting information. Moreover, only 19 percent of
respondents were aware of the FVAP Web site.

How it Can Be Improved?

If fully implemented, recommendations in this report should facilitate
compliance and alleviate difficulties in disseminating voting information and
material. The Principal Deputy Under Secretary of Defense for Personnel
and Readiness concurred with a recommendation for component and unit
heads flexibility in the assignment of unit voting assistance officers. The
Principal Deputy also concurred with the recommendation to establish a
“one-click” reference to voting assistance on the service Web sites. This will
allow members at all levels easy access to voting assistance information.
Commanders should also exploit local area network sites to advertise contact
information for unit voting assistance officers. Overall, more effective use of
FVAP and Service Web sites can improve timely access and delivery of
voting information and materials.

                                    Department of Defense Office of Inspector General
                                                              Report No. IE2006-001
                           i
Table of Contents

Executive Summary                                                                        i

Background                                                                              1

Objectives                                                                              3

Results                                                                                 4

Appendixes
     A. Scope and Methodology                                                          10
     B. Prior Coverage                                                                 11
     C. Summary Results of Effectiveness Survey                                        12
     D. Summary Results of Compliance Assessment                                       13
     E. Uniformed Absentee Voter Questionnaire                                         14
     F. Installations Visited                                                          20
     G. Department of the Army Inspector General Report                                21
     H. Department of the Navy Inspector General Report                                23
     I. Department of the Air Force Inspector General Report                           27
     J. Marine Corps Inspector General Report                                          32
     K. Acronym List                                                                   39
     L. Report Distribution                                                            40

Management Comments                                                                    41




                                                  Department of Defense Office of Inspector General
                                                                            Report No. IE2006-001
This Page Intentionally Blank
Background
   The Department of Defense (DoD) Inspector General (IG) and the Inspectors General of
   the Military Departments are required to conduct annual effectiveness and compliance
   assessments of the DoD Voting Assistance Programs (VAP) in accordance with the
   provisions of section 1566, title 10, United States Code, “Voting assistance; compliance
   assessments; assistance.” To conduct the assessment, the DoD IG team visited 10 DoD
   installations and reviewed the Military Departments’ respective assessment reports
   (Appendixes G through J).

   DoD Policy and Service Regulations. DoD Directive 1000.4, “Federal Voting
   Assistance Program (FVAP),” April 14, 2004 (the Directive), assigns the Under Secretary
   of Defense for Personnel and Readiness (USD [P&R]) the responsibility for
   administering the Federal Voting Assistance Program (FVAP) for the presidential
   designee, the Secretary of Defense. The USD (P&R) established the FVAP Office to
   manage the program.

   The Army, Navy, Air Force, and Marine Corps supplement the Directive with Service
   specific Regulations and Instructions:

      •   The Army Regulation 608-20, “Army Voting Assistance Program,” October 28,
          2004. The Regulation establishes and assigns specific responsibilities to the
          Adjutant General, commanders of major Army commands, installation
          commanders, and unit commanders down to company and detachment levels.

      •   Office of the Chief of Naval Operations Instruction 1742.1A (Revision), “Navy
          Voting Assistance Program,” December 15, 2004. The Instruction states that the
          Navy voting assistance program will ensure that eligible voters receive
          information about registration procedures and voting materials pertaining to
          scheduled elections.

      •   Air Force Instruction 36-3107, “Voting Assistance Program,” September 10,
          2003. The Instruction reiterates specific responsibilities for Air Force
          headquarters, commanders of major commands and installations, installation
          personnel directors, and Voting Assistance Officers at each level of command.

      •   Marine Corps Order 1742.1A (Change 1), “Voter Registration Program,” May 14,
          2002. The Order assigns responsibility for implementing the Marine Corps voter
          registration program to commanding officers at all echelons to assist Marines,
          their family members, and certain others in exercising their right to vote.

   Federal Voting Assistance Program. The FVAP Office provides assistance and voting
   information to the Military Services and absentee voters. The most notable services
   include: Voting Assistance Officer (VAO) Training (on-site and Web-based); Voting
   Assistance Guide with state-by-state information; the monthly publication “Voting
   Information News” that contains timely information on upcoming elections and a “to do”
   list for Unit VAOs; and FVAP Web site (http://www.fvap.gov) that provides voting
   assistance and information to uniformed absentee voters and eligible dependents.

   The FVAP Office submits a report to the President and the Congress after each
   Presidential election year and summarizes the effectiveness of assistance provided under

                                                  Department of Defense Office of Inspector General
                                                                            Report No. IE2006-001
                                           1
     the Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA). The most
     recent report on “The Federal Voting Assistance Program” was issued in October 2005.
     The UOCAVA reporting requirements specify a separate statistical analysis of uniformed
     services voter participation, a separate statistical analysis of overseas nonmilitary
     participation, and a description of State-Federal cooperation. Therefore, the FVAP report
     provides valuable information on the effectiveness of the voting assistance program as
     measured by actual voter participation.

Military Services Voting Assistance Programs
     The figure illustrates the major elements of the Military Services Voting Assistance
     Program. The Voting Assistance Officer (VAO) ensures that uniformed absentee voters
     and eligible dependents receive voting information and materials.




                             Voting Assistance Program Elements


                                                    Department of Defense Office of Inspector General
                                                                              Report No. IE2006-001
                                             2
Objectives
   In accordance with section 1566, title 10, United States Code, the objectives of this
   calendar year 2005 evaluation are to assess:

      •   the effectiveness of the DoD Voting Assistance Program; and

      •   the level of compliance of the Army, Navy, Air Force, and Marine Corps with the
          voting assistance program requirements.




                                                   Department of Defense Office of Inspector General
                                                                             Report No. IE2006-001
                                            3
Results

     The Inspectors General of the Military Departments reported that the calendar year 2005
     DoD voting assistance programs were generally effective in accordance with the
     provisions of section 1566, title 10, U.S. Code. However, there are opportunities to
     improve how voting information and materials are provided to all absentee voters. Sixty-
     nine percent of the survey respondents said they were aware of the Service voting
     assistance programs. Fifty-seven percent answered that they knew where to obtain voting
     information on base. Thirty- four percent of the respondents responded that they had
     received voting information and materials.

     The Inspectors General of the Military Departments also reported that their Services
     generally complied with the DoD Directive 1000.4, “Federal Voting Assistance Program
     (FVAP),” April 14, 2004, and their respective Service instructions. At the 10 DoD
     installations visited, we identified specific instances of non-compliance. However, we
     could not assess any negative effects attributable to these instances.

Overview
     The goal of the Federal Voting Assistance Program (FVAP) is to ensure that uniformed
     absentee voters and eligible voting age dependents receive information on voting
     registration, procedures, and materials pertaining to all scheduled elections, including
     dates, offices, constitutional amendments and other ballot proposals. The DoD Directive
     1000.4, “Federal Voting Assistance Program (FVAP),” April 14, 2004, requires Service
     voting assistance officers (VAO) to expeditiously obtain and disseminate information and
     voting forms to voters on an annual basis. The Directive also requires the VAO to
     personally assist voters for all elections. Furthermore, the Directive requires DoD
     components to establish and maintain a VAP homepage on their Web sites.

Assessment of Effectiveness
     We assessed the effectiveness of VAPs through a survey of DoD service members and
     their dependents. We conducted the survey through a questionnaire administered to
     5,418 uniformed absentee voters at the 10 locations visited. We received 1,193 usable
     responses. The results of survey responses at Appendix C show that the Services could
     improve their programs to disseminate voting information and absentee ballots.

     Dissemination of Voting Information and Absentee Ballots. Only 34 percent of
     respondents confirmed that they had received information pertaining to registration
     deadlines, deadlines for mailing the ballots, and voting procedures (Appendix C).
     However, 69 percent were aware of the VAP and 57 percent answered that they knew
     where to obtain voting information on base. Only 17 percent stated they had requested
     the assistance of their Unit VAO (UVAO). Because a majority of respondents knew
     where to get voting information, the physical non-receipt of voting information and
     materials among 66 percent of the respondents was somewhat mitigated.

     The Federal Post Card Application (FPCA), SF 76, is used to register to vote and request
     an absentee ballot. However, only 25 percent of respondents were aware of the FPCA.

                                                    Department of Defense Office of Inspector General
                                                                              Report No. IE2006-001
                                             4
    Absentee voters must also receive the FPCA in a timely manner to properly register and
    be eligible to vote. Only 24 percent had received SF 76 by the January 15 deadline. In
    addition, only 25 percent of the respondents were aware that the Federal Write-in
    Absentee Ballot (FWAB), SF 186, is a backup ballot that can be used if they did not
    receive the regular absentee ballot. Only 18 percent were aware of the FVAP Web site,
    and only 14 percent knew of the Service or component voting Web site. Potentially,
    greater use and access to voting Web sites could minimize the need for physical
    distribution of SF 76s.

    Survey of Dependents. We only received 7 responses from the 70 dependents surveyed.
    The 10 percent response rate yielded insufficient data to support any meaningful analysis
    of program effectiveness for dependents. Most VAOs rely on the active duty member to
    pass information and materials to dependents. Dependent responses to the survey were
    voluntary.

Assessment of Compliance
    As specified in section 1566, title 10, United States Code, we conducted unannounced
    visits to 10 installations to assess program compliance. At the two Navy installations, we
    identified opportunities to improve the dissemination of information and materials. Three
    of six Army UVAOs also did not deliver the FPCAs by the January 15 deadline. In
    addition, all the Services exceeded the guidelines for the assignment of UVAOs. Only 4
    of the 21 UVAOs assigned at the 10 installations responded that the number of personnel
    assigned to them were within Service guidelines (Appendix D).

    Installation VAOs (IVAO) and UVAOs have specific duties and responsibilities under
    the Directive to ensure voters get voting information and materials. We interviewed 3
    IVAOs and 21 UVAOs assigned at 10 installations. The interviews focused on the
    dissemination of information, the span of control measured as the ratio of UVAOs
    assigned to the number of unit members, and the assignment of duties at the specified
    rank or grade levels.

    Material Dissemination. All 24 VAOs interviewed had methods for disseminating
    voting materials to eligible voters. However, only 4 of the 21 UVAOs had delivered the
    SF 76s by January 15, 2005. The Directive specifies that the SF 76 must be delivered by
    hand to eligible voters and their voting-age dependents by January 15 of each year. The
    UVAOs gave several reasons for not delivering SF 76s in a timely manner, including:

       •   The UVAO was assigned to the position after January 15 and did not know
           whether their predecessor had delivered the form.

       •   The UVAO did not know of the requirement.

       •   There was a lack of emphasis on this requirement in 2005 because no Federal
           elections were scheduled.

    UVAO/Unit Member Ratio. Of the 21 UVAOs interviewed, 17 UVAOs represented
    more personnel in their units than the Directive or the Service instructions allowed.
    According to the Directive, one UVAO should be assigned within each unit of 25 or more
    permanently assigned members. An additional UVAO should be assigned for each
    additional 50 members above the 25-member base. In determining whether the Services

                                                   Department of Defense Office of Inspector General
                                                                             Report No. IE2006-001
                                            5
     complied with the guidance for UVAO to member ratios, we also considered the Service
     instructions. For example:

        •   Air Force Instruction 36-3107 requires one O-2/E-7 Unit Voting Assistance
            Counselor for every 100 members. Accordingly, 5 of the 7 Air Force UVAOs
            each represented more than 100 members.

        •   Marine Corps Order 1742 allows one UVAO for every 200 eligible voters.
            During our visit, we discovered that 2 Marine Corps UVAOs represented more
            than 200 service members.

     Although some UVAOs exceeded the ratio prescribed in the governing Directive and
     military instructions, they generally used all resources available to ensure that unit
     members and their dependents received voting materials. Such resources included the
     use of shift leaders, shop managers, platoon sergeants, e-mail, plan of the day,
     commander’s call, unit formations, and voter information booths. Therefore, we
     identified no adverse impact from nonstandard ratios of UVAOs to assigned personnel.
     We concluded that the Services should be allowed some flexibility to exceed the
     UVAO/unit member ratio in special circumstances, particularly if they can ensure the
     timely dissemination of voter information and materials.

     IVAO/UVAO Assignment. Considering the status of the 25 VAOs assigned at the 10
     installations visited, 18 met the grade/rank requirement. The Directive specifies that if a
     military member is assigned as the IVAO, that officer should hold the pay grade of O-4
     or higher. A UVAO should be designated and assigned in writing at the O-2/E-7 level or
     above within each unit of 25 or more permanently assigned members. However, one
     IVAO assigned was a Technical Sergeant E-6 and one UVAO was a Senior Airman E-4.

     At some installations, VAOs had volunteered for this additional duty. Although some of
     the volunteers did not meet the grade/rank requirement, they were energetic,
     knowledgeable, capable and, most importantly, wanted to do the job. In every instance
     we determined the VAO duties were satisfactorily accomplished despite some designees
     not meeting the grade/rank requirement. Therefore, we concluded that the Services
     should have some flexibility to allow individuals who do not meet the grade/rank
     requirement to still volunteer and serve as IVAOs and UVAOs, as necessary.

Availability of On-Line Information
     The Directive specifically requires heads of Components to establish and maintain a VAP
     homepage on the DoD Component’s Web site. However, the survey showed that only 14
     percent of respondents knew their Service had a Web site dedicated to voting
     information. Only 18 percent of respondents were aware of the FVAP Web site at
     www.fvap.gov.

     Military Web Sites. We accessed Web portals maintained by each Service and
     determined that although voting information could be researched at each site, ease of
     navigation through the Web site varied and, in most cases, can be improved.

        •   The Army Web site at www.hrc.army.mil contains five possible entries for
            starting a search, Active, Reserve, About Us, Links, and My Portal. Only the
            Active button leads to voting information. A second page must be accessed

                                                     Department of Defense Office of Inspector General
                                                                               Report No. IE2006-001
                                              6
           before a link to the FVAP showed up. Furthermore, the Reserve button did not
           lead to voting information.

       •   The Navy site at www.cni.navy.mil contained a Web link to the Navy Voting
           Program that included current information on upcoming gubernatorial elections,
           but no reference to the FVAP site where additional information is available.

       •   The Air Force site at www.afpc.randolph.af.mil contained a link to Federal
           Voting Assistance Program Web site.

       •   The Marine Corps site www.manpower.usmc.mil did not display a voting link on
           the home page, but required further search to find a link to voting information.

    A prominently displayed direct link to the FVAP Web site on each Service Web site
    should facilitate the dissemination of voting information and forms. Active duty
    personnel and their dependents with access to the Internet should avail themselves of this
    excellent source of voting information. This would ease the burden on VAOs to provide
    all information and materials and the Web site should also be useful to dependents.

    The FVAP Web Site. Voters can view and download information, materials, and forms
    from the FVAP Web site at www.fvap.gov:

       •   A new online version of the Federal Post Card Application, SF 76A. Though SF
           76A cannot be used for online voter registration, voters can download the form
           and mail in the application. The SF 76A is now accepted by all states and
           territories (except Guam and American Samoa) to request registration and/or an
           absentee ballot.

       •   An on-line version of the Federal Write-in Absentee Ballot (FWAB), SF 186A.
           The FWAB is used to vote for Federal offices in general elections. Some states
           allow military and U.S. citizens overseas to use the FWAB in elections other than
           general elections or for offices other than Federal offices, as explained on the
           FVAP Web site.

       •   The FVAP Web site provides links to 11 of the 50 states that have expanded
           usage of the FWAB beyond the provisions of the Uniformed and Overseas
           Citizens Voting Act (UOCAVA). World-wide toll-free telephone assistance is
           available for people with questions.

    All the useful information available from the FVAP Web site could be more visibly
    linked to Service Component Web sites. The utility of the Service Component Web sites
    would be greatly expanded if a link to the FVAP site were prominently displayed.

FVAP Assessment of Voter Participation
    According to FVAP office statistics, 26 percent of nonvoting Service members did not
    vote in the 2000 election because they did not know how to get an absentee ballot. In
    2004, only 10 percent gave this as a reason. The report also stated that the overall
    Uniformed Services voting participation rate was 79 percent in 2004. This participation
    rate was 15 percentage points higher than the 64 percent voting rate of the general public
    in 2004. Absentee voting among Service members in 2004 accounted for 53 of the 79
    percent compared to 37 percent of the Service members who voted in 2000. The DoD IG
                                                    Department of Defense Office of Inspector General
                                                                              Report No. IE2006-001
                                             7
    questionnaire results showed that 65 percent of the respondents plan to vote by absentee
    ballot in the next election, a potential further increase of absentee voters.

Conclusions
    The evidence from our evaluation, while a limited sample, is consistent with the
    conclusions of the Inspectors General of the Army, Navy, Air Force, and Marine Corps in
    their respective reports (see Appendixes G through J). For the most part, their VAPs
    complied with the provisions of section 1566, title 10, United States Code and were
    effective in calendar year 2005. Also, we note the relatively high percentage of actual
    military voter participation compared to the general population. However, both the
    Military Departments’ Inspectors General and we identified specific opportunities to
    improve the execution of the voter assistance programs.

    DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance Program,”
    March 31, 2005, identified observations related to the dissemination of information and
    material to voters in 2004. To address those and other observations, we recommended
    that the Under Secretary of Defense for Personnel and Readiness revise DoD Directive
    1000.4. The Directive should address VAO training requirements and require the FVAP
    Office and Military Services to collect and analyze metrics on a more frequent basis, as a
    means of identifying areas of concern in accomplishing program objectives. Other
    recommendations to the USD(P&R) included:

       •   developing an automated delivery and reporting system; and

       •   developing and forwarding a legislative change proposal to Congress that would
           reduce or eliminate oversight requirements by Services’ and DoD IGs,
           commensurate with the success of process improvements and automated reporting
           procedures.

    The USD (P&R) concurred with our recommendations and we are monitoring the
    issuance of the revised Directive. We believe insufficient time has elapsed to observe the
    effect of implementing the recommendations in the March 31, 2005, report. We will
    follow up on those recommendations in our assessment of DoD Voting Assistance
    Programs in 2006, which is a Federal election year. Federal election requirements were
    not an issue in 2005.

    If fully implemented, our prior recommendation to develop an automated delivery and
    reporting system should alleviate issues identified in this report concerning the
    dissemination of voting information and material. Further improvements to the VAPs
    can be achieved by allowing for flexibility in the assignment of UVAOs and in improving
    Service Web sites to provide direct links to the FVAP Web site. The assignment of
    UVAOs at a lower grade level or in fewer numbers than the Directive currently permits
    might be justifiable provided access to Web-based voting information is made readily
    available to all absentee voters.




                                                    Department of Defense Office of Inspector General
                                                                              Report No. IE2006-001
                                             8
Recommendations
    We recommend that the Under Secretary of Defense for Personnel and Readiness:

       1. Revise DoD Directive 1000.4, “Federal Voting Assistance Program
          (FVAP),”April 14, 2004, to permit heads of the DoD Components and the
          Uniformed Services to exercise some flexibility in how many Unit Voting
          Assistance Officers they assign and at what level.

       2. Direct the Services to establish a “one-click” Web site access from their main
          home page to a Voting page that provides Service-related and Federal Voting
          Assistance Program-related information and materials. The FVAP office, in
          cooperation with the Services’ Senior Voting Assistance Officers, should conduct
          a DoD-wide campaign to institutionalize the “one-click” Web link to voting
          information. Overall, more effective use of Federal Voting Assistance Program
          and Service Web sites can improve timely access and delivery of voting
          information and materials.

Management Comments
    On behalf of the USD (P&R), the Principal Deputy, USD (P&R) concurred with the
    above recommendations. The full text of the response is included in the Management
    Comments section of this report. The Principal Deputy also suggested the following
    edits-all of which have been incorporated:

       •   Figure on Voting Assistance Program Elements-correct lines of responsibility;
       •   Correct form number SF 76A for the online Federal Post Card Application; and
       •   Identify title of monthly newsletter as Voting Information News.




                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE2006-001
                                           9
Appendix A. Scope and Methodology

   We conducted unannounced visits to 10 military installations, including 3 Army, 2 Navy,
   3 Air Force, and 2 Marine Corps installations. At each location, we assessed the Voting
   Assistance Program (VAP). We developed questionnaires for interviews and surveys of
   prospective voters based on statutory requirements and DoD policies. We interviewed
   Voting Assistance Officers (VAO) and surveyed military personnel assigned and their
   dependents.

      •   To assess the effectiveness of VAPs, we disseminated a Web-based survey to
          5,418 uniformed personnel, representing the required 20 percent of the 27,026
          personnel assigned to the 10 installations. We also distributed the survey
          questionnaires to 70 dependents. Survey questions focused on the dissemination
          of information and voting materials.

      •   To assess the Military Services’ compliance with VAPs, we interviewed 3 of 5
          assigned Installation VAOs and 21 Unit VAOs. Interview questions addressed six
          areas: VAO appointments, information dissemination, materials dissemination,
          training, resources, and written guidance.

   Levels of effectiveness and compliance were measured as the percentage of respondents
   who answered affirmatively.

   Use of Computer-Processed Data. We relied on data provided by the Defense
   Management Data Center to identify personnel assigned to installation sites selected.
   Although we did not perform a formal reliability assessment of the computer-processed
   data, we determined that the personnel rosters accurately identified people assigned to the
   installations. We did not find errors that would preclude the use of Defense Management
   Data Center data to meet the evaluation objective or to change our report conclusions.

   Universe and Sample. We judgmentally selected the 10 installation sites from which the
   universe of 27,026 uniformed personnel was drawn. The 20 percent sample of 5,418 was
   the result of statistical sampling. The judgmental selection of 10 field sites means that
   the results cannot be projected beyond the installations visited.

   We received 1,193 responses to the Web-based survey, representing a response rate of
   22 percent. The comparatively low response rate was in part the result of our visits being
   unannounced and units being deployed or otherwise not available to participate in the
   survey.

   The evaluation was conducted from June 2005 through March 2006 in accordance with
   the President’s Council on Integrity and Efficiency “Quality Standards for Inspections.”
   Section 1566, title 10, United States Code, requires Service IG reports to be reflected in
   the DoD IG report to Congress. Accordingly, the Service IG reports are in Appendixes G
   through J. We did not validate the results in the Service IG reports.

   Use of Technical Assistance. Personnel from the DoD IG Quantitative Methods
   Division assisted with questionnaire development and data analysis. Also, the DoD IG
   Web Development Team assisted with developing and implementing the Web-based
   survey questionnaire.



                                                   Department of Defense Office of Inspector General
                                                                             Report No. IE2006-001
                                           10
Appendix B. Prior Coverage

      During the last 5 years, the Government Accountability Office (GAO), DoD, and
      the Department of State have issued reports on the FVAP and overseas absentee
      voting. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-05-956, “Elections: Federal Efforts to Improve Security
      and Reliability of Electronic Voting Systems Are Underway, but Key Activities
      Need to be Completed,” September 21, 2005

      GAO Report No. GAO-04-975T, “Elections: Electronic Voting Offers
      Opportunities and Presents Challenges,” July 20, 2004

DoD
      DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance
      Program,”
      March 31, 2005

      Secretary of Defense “Report on DoD Actions to Support Voting Assistance to
      Armed Forces Outside the U.S.,” December 2004

      DoD IG Report No. D-2004-065, “DoD Implementation of the Voting Assistance
      Program,” March 31, 2004

      DoD IG Report No. D-2003-072, “DoD Compliance with the Uniformed and
      Overseas Citizens Absentee Voting Act,” March 31, 2003

      DoD IG Report No. D-2001-145, “Overseas Absentee Ballot Handling in DoD,”
      June 22, 2001

Department of State
      United States Department of State Report No. 01-FP-M-045, “Review of
      Implementation of the Federal Voter Assistance Program,” August 2001




                                              Department of Defense Office of Inspector General
                                                                        Report No. IE2006-001
                                         11
     Appendix C. Summary Results of Effectiveness Survey *
     Source: Uniformed Absentee Voters Survey

     Area                                                        USA              USN               USAF               USMC                  Overall
                                                                                                                                           Percentages
                ►     Sub-area

     Information Dissemination
                ►     Info on VAP received?                      30%              42%                31%                33%                    34%
                ►     Command Events this year                   27%              28%                24%                16%                    24%
                ►     Know Voters Week                           26%              30%                23%                31%                    25%
                ►     Aware of VAP                               58%              77%                71%                82%                    69%
                ►     Aware of VAO                               34%              39%                33%                39%                    34%
                ►     On-base location for assistance            59%              62%                54%                71%                    57%
                ►     FPCA can be used to register and           30%              34%                22%                25%                    25%
                      request Absentee Ballot
                ►     FWAB can be used as back-up if             31%              28%                24%                25%                    25%
                      Regular Absentee Ballot is not received
                ►     FVAP Web site                              21%              22%                16%                15%                    18%
12




                ►     FVAP Voting Guide                          21%              25%                18%                19%                    20%
                ►     Service or installation voting Web site    16%              16%                14%                11%                    14%
                ►     If Voting, how? Absentee Ballot            54%              69%                66%                69%                    63%
                ►     If Voting, how? In Person                  46%              29%                34%                29%                    35%
                ►     UVAO assistance requested?                 20%              17%                17%                15%                    17%
                ►     UVAO assistance not requested?             23%              30%                24%                29%                    25%

     Distribution of Materials
                ►     FPCA delivered by Jan 15th                 30%              23%                22%                25%                    24%
                ►     FWAB received                              31%              23%                18%                19%                    21%




     _________________________________
     *
         Effectiveness was measured as the percentage of respondents who answered affirmatively to a question. Overall, we received 1,193 responses
     Appendix D. Summary Results of Compliance Assessment *
     Source: Interviews with 24 1 Voting Assistance Officers at 10 installations.

     Area                                                  USA        USN           USAF     USMC       Aggregate    Percentage
            ►    Sub-area

     VAO Appointments
          ► IVAO Assigned                                 2 of 3      2 of 2        1 of 3    0 of 2     5 of 10          50%
            ►    IVAO Proper rank/Pay Grade               2 of 2      2 of 2        0 of 1    0 of 0      4 of 5          80%
            ►    UVAO Assigned (# installations)          3 of 3      2 of 2        3 of 3    2 of 2     10 of 10         100%
            ►    UVAO Proper rank/Pay Grade               6 of 6      5 of 6        6 of 7    2 of 2     19 of 21         90%
            ►    VAOs Assigned in Writing                 6 of 7      3 of 8        5 of 8    2 of 2     16 of 25         64%
            ►    UVAO/Unit Member Ratio iaw               1 of 6      1 of 6        2 of 7    0 of 2      4 of 21         19%
                 Guidance

     Dissemination of Information
           ► VAOs expeditiously disseminate DoD           5 of 7      2 of 7        6 of 8    1 of 2     14 of 24         58%
                voting information
13




     Dissemination of Material
           ► UVAOs delivered FPCA by 15 Jan               3 of 6      1 of 6        5 of 7    2 of 2     11 of 21         52%
                deadline

     Service Resources
            ► Provide Web sites                           1 of 1      1 of 1        1 of 1    1 of 1      4 of 4          100%
            ► VAOs purchase/maintain sufficient           5 of 6      7 of 8        7 of 8    2 of 2     21 of 24         88%
                 materials


     Service Written Guidance
            ► Military covered                            1 of 1      1 of 1        1 of 1    1 of 1      4 of 4          100%
            ► Dependents covered                          1 of 1      1 of 1        1 of 1    1 of 1      4 of 4          100%
            ► Deployed covered                            1 of 1      1 of 1        1 of 1    1 of 1      4 of 4          100%
            ► Dispersed covered                           1 of 1      1 of 1        1 of 1    1 of 1      4 of 4          100%
            ► Tenant units covered                        1 of 1      1 of 1        1 of 1    1 of 1      4 of 4          100%




     * A total of 4 Installation VAOs and 21 Unit VAOs were assigned at the 10 installations. One IVAO was unavailable.
Appendix E. Uniformed Absentee Vote Questionnaire




             Absentee Voter Questionnaire - Active Duty Members of the Uniformed
              Services & Dependents

                                    About This Questionnaire

Will my questionnaire responses be kept anonymous? Yes. There is no information being
collected that could be used to identify individuals. Your responses will be combined with
information from other uniformed service members and dependents to report the views and
experiences of groups of personnel. Do not use any personal names anywhere on this
questionnaire.

Why me? Installations have been selected to solicit information from uniformed service
members and dependents regarding the absentee ballot process. Information collected in this
questionnaire will be used to report their awareness of the absentee ballot voting process. Your
responses are important to provide us with insights to this process.

                                         Privacy Notice

Authority: This questionnaire is being administered by the Inspector General of the Department
of Defense under the authority of Section 1566, chapter 80 of title 10, United States Code.

Principal Purpose: Information collected will be used to determine uniformed service
members’ and dependents’ awareness of the procedures and resources used to support the
absentee ballot voting process. This information may assist in the formulation of policies to
improve the absentee ballot voting process.

Routine Uses: None.

Disclosure: Providing information on this questionnaire is voluntary. There is no penalty if you
choose not to respond. However, maximum participation is encouraged. No identifying
information is being collected that could identify individuals. Only summary information will be
reported.




                                                14
Completing This Questionnaire

•   This is not a test.
•   Select answers that you believe are most appropriate.
•   Fill in the appropriate circle or circles.
•   Complete all questions before exiting Web site.

Demographic and Voting Questions

1. What is your status? Click on one circle.

    o Active Duty
    o National Guard
    o Voting Age Dependents

2. What is your/your sponsor’s Service? Click on one circle.

    o   Army
    o   Navy
    o   Air Force
    o   Marine Corps

3. What is your/your sponsor’s rate or rank? Click on one circle.

    o   E1—E4
    o   E5—E9
    o   W01-W05
    o   01-03
    o   04-010

4. What is your education level? Click on one circle

    o   Less than high school
    o   High school diploma or equivalent (e.g., GED)
    o   At least some college credits, but no 4-year degree
    o   Bachelor’s degree or higher




                                                15
5. What is your age? Click on one circle

       o 18 to 24
       o 25 to 44
       o 45 or older

6. Did you enlist or join the service during the past 12 months? Click
on one circle.

   o Yes
   o No (If no, please click here to skip to question 9)
   o N/A (If n/a, please click here to skip to question 9)

7. During the recruitment/enlistment process, were you provided the
following? Click on circle for item.

a. DD Form 2645, “Voter Registration Information.”

   o Yes
   o No
   o Don’t recall

b. DD Form 2644, “Mail Voter Registration Application.”

   o Yes
   o No
   o Don’t recall

8. Did you receive information on the absentee voter assistance program
during basic training? Click on one circle.

   o Yes
   o No
   o Don’t recall

9. Did you, either on-line or in person, complete any training during this calendar year on
absentee voter registration and voting procedures? Click on one
circle.

   o Yes
   o No




                                                16
10. Do you know the location on the installation where you can obtain
voting material and assistance? Click on one circle.

   o Yes
   o No

11. During this calendar year, did your/your sponsor’s command have
any special events dedicated to providing information on voter
registration and upcoming elections? Click on one circle.

   o Yes
   o No
   o Don’t recall

12. Are you aware of Armed Forces Voters Week? Click on one circle.

   o Yes
   o No

13. If planning to vote in the next election, what method do you plan to use? Click on one
circle.

   o Absentee Ballot
   o In Person

14. Do you know that your/your sponsor’s Service has a voting
assistance program? Click on one circle.

   o Yes
   o No

15. Are you an Installation or Unit Voting Assistance Officer
(IVAO/UVAO)?

   o Yes
   o No

16. Do you know who your Unit Voting Assistance Officer is? Click on
one circle.

   o Yes
   o No, (If no, please click here to skip to question 18)




                                               17
17. During 2005, did your Unit Voting Assistance Officer provide
assistance upon request? Click on one circle.

   o Yes
   o No
   o Assistance not requested

18. During 2005, did you receive the following?
Click on one circle for each item.

                                                                              Don’t
                                                      Yes           No
                                                                              Recall
a. Information about the Service voting assistance
program

b. In-hand delivery of SF 76, “Federal Post Card
Application (FPCA),” for Registration and
Request for Absentee Ballot by January 15th

c. SF 186, “Federal Write-in Absentee Ballot”



19. During 2005, were you aware of the voting and communication
tools listed below? Click on circle for each item.

                                                      Fully        Somewhat
                                                                            Unfamiliar
                                                      Aware        Aware
a. The Federal Voting Assistance Program Web site
that provides voting-related information and
resources


b. 2004-05 Voting Assistance Guide that provides
State-by-State information that enables you to
register and vote absentee

c. A Service or installation voting assistance
program Web site




                                                 18
20. Before taking this survey, were you aware that the Federal Post Card Application, SF 76,
could be used to register to vote and to request an absentee ballot? Click on one circle.

   o Yes
   o No

21. Before taking this survey, were you aware that the Federal Write-In Absentee Ballot is a
backup ballot that can be used if you did not receive your regular absentee ballot? Click on one
circle.

   o Yes
   o No

22. Is there anything else related to the FVAP that you would like to mention?

   Thank you very much for participating in this survey.




                                                19
Appendix F. Installations Visited

Department of the Army
Fort Lee, Petersburg, Virginia
Fort McNair, Washington, District of Columbia
Fort Myer, Arlington, Virginia


Department of the Navy
Patuxent River Naval Air Station, Maryland
Naval Medical Center San Diego, California
Marine Barracks, Washington, District of Columbia
Marine Corps Headquarters, Henderson Hall, Arlington, Virginia

Department of the Air Force
Andrews Air Force Base, Maryland
Pope Air Force Base, North Carolina
Seymour Johnson Air Force Base, North Carolina




                                             20
Appendix G. Department of the Army
            Inspector General Report




                        21
22
Appendix H. Department of the Navy
            Inspector General Report




                      23
24
25
26
Appendix I. Department of the Air Force
            Inspector General Report




                       27
28
29
30
31
Appendix J. Marine Corps
            Inspector General Report




                        32
33
34
35
36
37
38
Appendix K. List of Acronyms

Acronyms
DoD IG     Inspector General
FPCA       Federal Post Card Application
FVAP       Federal Voting Assistance Program
FWAB       Federal Write-In Absentee Ballot
GAO        Government Accountability Office
IVAO       Installation Voting Assistance Officer
USD(P&R)   Under Secretary of Defense for Personnel and Readiness
UOCAVA     Uniformed and Overseas Civilians Absentee Voting Act
UVAO       Unit Voting Assistance Officer
VAO        Voting Assistance Officer
VAP        Voting Assistance Program




                                  39
Appendix L. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)*
   Director, Federal Voting Assistance Program*
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Chief of Staff, U.S. Army*
Inspector General, Department of the Army

Department of the Navy
Secretary of the Navy
Chief of Naval Operations*
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters*

Department of the Air Force
Secretary of the Air Force
Chief of Staff, U.S. Air Force*
Inspector General, Department of the Air Force

Combatant Command
Inspector General, Joint Staff

Non-Defense federal Organization
Office of Management and Budget

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Defense, Committee on Appropriations




                                                 40
Management Comments
                            OFFICE OF THE UNDER SECRETARY OF DEFENSE 4000
                                 DEFENSE PENTAGON WASHINGTON, D.C. 20301-4000




                                                               March 21, 2006
 PERSONNEL AND
   READINESS



MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

SUBJECT: Response to Draft report on Evaluation of the DoD Voting Assistance
         Program, Project No. D2005-DIPOE3-0194

        The Federal Voting Assistance Program administers the federal provisions of the
Uniformed and Overseas Citizens Absentee Voting Act. The FV AP has a proven record
of continual improvement in carrying out its responsibilities to meet the voting needs of
the military and overseas citizens in a non-partisan manner. Realizing there were no
scheduled federal office elections in 2005, the Department still required that each
Uniformed Service member receive a Federal Post Card Application due to the continued
high operations tempo. However, we understand that overall voting awareness may not
be as high as in years of required Voting Assistance Officer training. The FV AP will
continue to put a strong emphasis on federal elections and make improvements based on
the findings of their 2004 post election survey, customer feedback and recommendations
from the DoDIG.

        I concur with the recommendation for Component and Unit heads to be allowed
flexibility in the assignment of Unit Voting Assistance Officers. The report notes that
there was no adverse impact in units that exceeded the UV AO/unit member ratio.
Additionally, Component and Unit heads should be allowed to assign IV AOs and
UV AOs who do not meet the grade/rank requirement to still volunteer and serve so
long as the volunteers are knowledgeable, capable, and want to do the job.

        I concur with the "one-click" recommendation for service websites to enable
members at all levels to easily avail themselves of important voting assistance
information. This will allow members to access Service specific voting guidance
Installation Voting Assistance Officers to provide their contact information as well as the
contact information for Unit Voting Assistance Officers oftenant organizations.

       Beyond that, we note that "Figure 1: Voting Assistance Program Elements"
should be redrawn to show the UDS (P&R)/FV AP bubble over the Military Services
bubble which should itself be over the Installation and Unit Commanders bubble. We
also note that the monthly newsletter published by the Federal Voting Assistance
Program for Voting Assistance Officers is called Voting Information News, and that the
proper form number for the online Federal Post Card Application is SF 76A.




                                          41
42
THE MISSION OF THE OIG DoD

The Office of the Inspector General promotes integrity, accountability, and improvement
of Department of Defense personnel, programs and operations to support the
Department’s
mission and to serve the public interest.



TEAM MEMBERS

The Inspections and Evaluations Directorate, Office of the Deputy Inspector General for
Policy and Oversight, Office of the Inspector General for the Department of Defense
prepared this report. Personnel who contributed to the report include Ms. Madelaine E.
Fusfield, Team Leader, Ms. Beverly Cornish, Mr. Gary Queen, and Ms. Carol Brink-
Meissner.

The Quantitative Methods Division provided technical support. Personnel who
contributed were Dr. H. David Barton and Dr. Kandasamy Selvavel.



ADDITIONAL REPORT COPIES

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Policy and
Oversight
 COM: 703.604.9130 (DSN 664-9130)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.mil
 Electronic version available at: http://www.dodig.mil/Inspections/IE/Reports.htm
This Page Intentionally Blank
                                             DEPARTMENT OF DEFENSE
                                          OFFICE OF INSPECTOR GENERAL




                                                         MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




               On the Cover:
               We have chosen the Statue of Freedom from the United States Capitol as a symbol to be reflected in our report
               covers.

               The bronze Statue of Freedom was designed by American sculptor Thomas Crawford in 1857-1859. Crawford
               described his creation as being readily understandable by the American people:
                 I have endeavored to represent Freedom triumphant __ in Peace and War . . . In her left hand she holds the olive
                 branch while the right hand rests on a sword which sustains the Shield of the United States. These emblems
                 are such as the mass of our people will easily understand . . . I have introduced a base surrounded by wreaths
                 indicative of the rewards Freedom is ready to bestow . . .

               Allen, William C. , The Dome of the United States Capitol: An Architectural History. Prepared under the Direction of George M. White, FAIA,




                                                                                                                                                             hot line
               Architect of the Capitol, U.S. Government Printing Office Washington: 1992                                                                    D E PA R T M E N T O F D E F E N S E
                                                                                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.
                                                                                                                                                                                                    Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
       If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of Defense, please contact us.
               Phone: 800.424.9098                    E-mail: hotline@dodig.mil                      Web site: www.dodig.mil/hotline
NO MONEY SHALL BE DRAWN FROM THE TREASURY, BUT IN CONSEQUENCE OF APPROPRIATIONS MADE BY LAW;
  AND A REGULAR STATEMENT AND ACCOUNT OF THE RECEIPTS AND EXPENDITURES OF ALL PUBLIC MONEY
          SHALL BE PUBLISHED FROM TIME TO TIME. U.S. CONSTITUTION - ARTICLE 1, SECTION 9.
